<html>
<title> - RHINO AND TIGER CONSERVATION</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
                      RHINO AND TIGER CONSERVATION

=======================================================================

                                HEARING

                               before the

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                                   on

                               H.R. 2807

TO AMEND THE RHINOCEROS AND TIGER CONSERVATION ACT OF 1994 TO PROHIBIT 
     THE SALE, IMPORTATION, AND EXPORTATION OF PRODUCTS LABELED AS 
         CONTAINING SUBSTANCES DERIVED FROM RHINOCEROS OR TIGER

                               H.R. 3113

    TO REAUTHORIZE THE RHINOCEROS AND TIGER CONSERVATION ACT OF 1994

                               __________

                    FEBRUARY 5, 1998, WASHINGTON, DC

                               __________

                           Serial No. 105-69

                               __________

           Printed for the use of the Committee on Resources



                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 46-818 CC                   WASHINGTON : 1998
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  LLOYD DOGGETT, Texas
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

      Subcommittee on Fisheries Conservation, Wildlife and Oceans

                    JIM SAXTON, New Jersey, Chairman
W.J. (BILLY) TAUZIN, Louisiana       NEIL ABERCROMBIE, Hawaii
WAYNE T. GILCHREST, Maryland         SOLOMON P. ORTIZ, Texas
WALTER B. JONES, Jr., North          FRANK PALLONE, Jr., New Jersey
    Carolina                         SAM FARR, California
JOHN PETERSON, Pennsylvania          PATRICK J. KENNEDY, Rhode Island
MICHAEL D. CRAPO, Idaho
                    Harry Burroughs, Staff Director
                    John Rayfield, Legislative Staff
               Karen Steur, Democratic Legislative Staff



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held February 5, 1998....................................     1

Statement of Members:
    Farr, Hon. Sam, a Representative in Congress from the State 
      of California..............................................    15
    Miller, Hon. George, a Representative in Congress from the 
      State of California........................................     2
        Prepared statement of....................................     3
    Saxton, Hon. Jim, a Representative in Congress from the State 
      of New Jersey..............................................     1
        Prepared statement of....................................     2

Statement of Witnesses:
    Babbitt, Hon. Bruce, Secretary, Department of the Interior, 
      accompanied by Brooks Yeager, Deputy Assistant Secretary 
      for Policy and International Affairs, Department of the 
      Interior, and Marshall P. Jones, Assistant Director for 
      International Affairs, U.S. Fish and Wildlife Service......     3
        Prepared statement of....................................    35
    Bolze, Dorene, Senior Policy Analyst, Wildlife Conservation 
      Society....................................................    17
        Prepared statement of....................................   137
    Foose, Thomas J., Program Director, International Rhino 
      Foundation.................................................    22
        Prepared statement of....................................   202
    Fuller, Kathryn, President, World Wildlife Fund, accompanied 
      by Ginette Hemley, Director of International Wildlife 
      Policy, World Wildlife Fund................................     8
        Prepared statement of....................................    64
    Lao, Dr. Lixing, Assistant Professor, Family Medicine, 
      University of Maryland.....................................     9
        Prepared statement of....................................    28
    Maple, Dr. Terry, President and Chief Executive Officer, Zoo 
      Atlanta....................................................     6
        Prepared statement of....................................    42
    Parsons, Richard M., Director, Department of Wildlife 
      Conservation and Governmental Affairs, Safari Club 
      International..............................................    21
        Prepared statement of....................................   196
    Seidensticker, John, Curator of Mammals, National Zoological 
      Park.......................................................    19
        Prepared statement of....................................   185

Additional material supplied:
    Environmental Investigation Agency, prepared statement of....   215
    Text of H.R. 2807............................................    30
    Text of H.R. 3113............................................    33



 HEARING ON H.R. 2807, TO AMEND THE RHINOCEROS AND TIGER CONSERVATION 
   ACT OF 1994 TO PROHIBIT THE SALE, IMPORTATION, AND EXPORTATION OF 
 PRODUCTS LABELED AS CONTAINING SUBSTANCES DERIVED FROM RHINOCEROS OR 
     TIGER AND H.R. 3113, TO REAUTHORIZE THE RHINOCEROS AND TIGER 
                        CONSERVATION ACT OF 1994

                              ----------                              


                       THURSDAY, FEBRUARY 5, 1998

        House of Representatives, Subcommittee on Fisheries 
            Conservation, Wildlife and Oceans, Committee on 
            Resources, Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:03 a.m., in 
room 1334, Longworth House Office Building, the Hon. Jim Saxton 
(chairman of the Subcommittee) presiding.
    Mr. Saxton. Good morning. The Subcommittee on Fisheries 
Conservation, Wildlife and Oceans will come to order. Good 
morning. I would like to, once again, welcome everyone here.

STATEMENT OF HON. JIM SAXTON, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF NEW JERSEY

    Mr. Saxton. As you know, today we will discuss two 
important wildlife conservation bills, H.R. 2807 and H.R. 3113.
    [The bills may be found at end of hearing.]
    Mr. Saxton. The first bill, which I introduced, H.R. 2807, 
will ensure that no person may import any product labeled or 
containing any species of rhinoceros or tiger into or export 
such product from the United States.
    Unfortunately, despite the fact that these species have 
been listed as endangered for over 20 years, there are 
pharmacies well located in America that have products on their 
shelves indicating they contain rhino and tiger parts.
    While some of the products are confiscated prior to 
importation, it is virtually impossible to prove that the 
ingredients in the medicine originated from a rhinoceros or 
tiger. The Rhino and Tiger Product Labeling Act will solve that 
problem. If the label on the product says that it contains 
rhinoceros or tiger parts, then this legislation will prevent 
it from coming into the United States by making the legal 
presumption, without any further tests or analysis, that it 
violates our trade laws.
    In short, if a medication says it contains components of 
rhinos or tigers, then we accept the manufacturer's assertion 
and stop its sale.
    The second bill, H.R. 3113, was introduced by the 
distinguished Chairman of the Resources Committee, the 
Honorable Don Young, to extend the Rhinoceros and Tiger 
Conservation Act fund until September 30th, 2004. I strongly 
support this bill and believe the grants made from this fund 
are making a positive difference in the international fight to 
save rhinos and tigers.
    [The prepared statement of Mr. Saxton follows:]

  Statement of Hon. Jim Saxton, a Representative in Congress from the 
                          State of New Jersey

    Good morning, Ladies and Gentlemen. I would like to welcome 
everyone to our Subcommittee's first hearing in the Second 
Session of the 105th Congress.
    Last year, our Subcommittee was extremely productive and 
successful in moving a number of legislative proposals forward. 
We held 25 days of hearings, 7 markup sessions, 12 of our bills 
passed the House of Representatives, and 6 were enacted into 
law. I am particularly pleased that the President signed into 
law measures creating the Asian Elephant Conservation Fund, 
extending the Atlantic Striped Bass Act, protecting valuable 
herring and mackerel stocks off the coast of New Jersey, and 
establishing for the first time an organic act for our Nation's 
Wildlife Refuge System. I am confident we will build on that 
record this year.
    Today we will hear testimony on legislation to help save 
two highly endangered keystone species, the rhinoceros and the 
tiger. Unless immediate steps are taken, these magnificent 
animals will continue their slide toward extinction.
    The first bill which I introduced, H.R. 2807, will ensure 
that no person may import any product labeled or containing any 
species of rhinoceros or tiger into, or export any such product 
from, the United States. Fortunately, despite the fact that 
these species have been listed as endangered for over 20 years, 
there are pharmacies all over America that have products on 
their shelves indicating they contain rhino and tiger parts.
    While some of these products are confiscated prior to 
importation, it is virtually impossible to prove that the 
ingredients in the medicine originated from a rhinoceros or a 
tiger.
    The Rhino and Tiger Product Labeling Act will solve that 
problem. If a label on a product says that it contains 
rhinoceros or tiger parts, then this legislation will prevent 
it from coming into the United States by making the legal 
presumption, without any further tests or analysis, that it 
violates our trade laws. In short, if a medication says it 
contains components of a rhino or tiger, then we accept the 
manufacturers' assertion and stop its sale.
    The second bill, H.R. 3113, was introduced by the 
distinguished Chairman of the full Resources Committee, the 
Honorable Don Young, to extend the Rhinoceros and Tiger 
Conservation Fund until September 30, 2004. I strongly support 
this bill and believe that the grants made from this Fund are 
making a positive difference in the international fight to save 
rhinos and tigers.
    I look forward to hearing from our prominent witnesses and 
would like, in particular, to welcome back to our Subcommittee 
the distinguished Secretary of the Interior, Bruce Babbitt.

    Mr. Saxton. Let me recognize Mr. Miller at this point, for 
any statement he may have.

 STATEMENT OF HON. GEORGE MILLER, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Miller. Thank you, Mr. Chairman. I will not have an 
opening statement. I just wanted to reiterate the point that 
was made by the Secretary, and that is prior to a lot of 
changes in international trade we had tools, I believe, that 
were available to us, that are not available today. That is one 
of the reasons that we need this legislation. I look forward to 
the testimony.
    Mr. Saxton. Thank you, Mr. Miller. I would now just like to 
ask unanimous consent that all Subcommittee members be 
permitted to include their opening statements in the record. 
Without objection.
    [The prepared statement of Mr. Young follows:]

  Statement of Hon. Don Young, a Representative in Congress from the 
                            State of Alaska

    Mr. Chairman, I am pleased that you are conducting this 
hearing today on two pieces of legislation to help conserve 
highly endangered rhinos and tigers.
    There is no question that human population growth and 
intense competition for land has resulted in destruction of 
critical habitat for these species. After all, we are talking 
about some of the most densely populated countries in the 
world.
    Nevertheless, the major cause for the decline of rhinos and 
tigers is the huge ongoing demand for products made from these 
animals. For generations, Oriental medicines have contained 
ingredients of rhino and tiger parts that are consumed to fight 
headaches and fever in children, kidney and liver problems, 
convulsions, and heart conditions. In almost all cases, rhino 
horn and tiger bones are obtained from illegal sources.
    We must eliminate the market for these products to have any 
real hope of saving these flagship species. The legislation 
before us today is designed to assist in that effort and, in 
particular, I would like to highlight the important work of the 
Rhinoceros and Tiger Conservation Fund.
    Since its inception in 1994, the Department of the Interior 
has funded 30 conservation projects to assist rhinos and 
tigers. These projects have included: aerial monitoring of the 
Northern white rhinoceros in Zaire; investigation of poaching 
and illegal trade in wild tigers in India; and the training of 
wildlife staff for four black rhino populations in the Selous 
Game Reserve in Tanzania. The sponsors of these projects intend 
to match the $585,000 they have received in Federal funds, and 
I am confident that these grants will make a positive 
difference.
    Since I believe the Fund is an effective investment of 
Federal money, I introduced H.R. 3113, which will allow the 
Secretary of the Interior to approve rhino and tiger 
conservation projects until September 30, 2004.
    I look forward to hearing from our distinguished witnesses 
and to early Subcommittee consideration of this important 
legislation.

    Mr. Saxton. Now I would like to introduce our first 
witness, or I guess I should say reintroduce. Panel No. 1 is, 
of course, the distinguished Secretary of Interior, long-time 
friend of all of ours, the Honorable Bruce Babbitt. I am told 
the Secretary is also accompanied by Mr. Brooks Yeager and Mr. 
Marshall Jones.
    Let me remind our witnesses that under the Committee rules 
we must limit our oral statements to 5 minutes or thereabouts, 
but your entire statement will be recorded in the record. Mr. 
Secretary?

 STATEMENT OF HON. BRUCE BABBITT, SECRETARY, DEPARTMENT OF THE 
   INTERIOR, ACCOMPANIED BY BROOKS YEAGER, DEPUTY ASSISTANT 
 SECRETARY FOR POLICY AND INTERNATIONAL AFFAIRS, DEPARTMENT OF 
  THE INTERIOR, AND MARSHALL P. JONES, ASSISTANT DIRECTOR FOR 
     INTERNATIONAL AFFAIRS, U.S. FISH AND WILDLIFE SERVICE

    Secretary Babbitt. Mr. Chairman, good morning, and thank 
you. I appreciate the opportunity to come before you and 
Congressman Miller and the Committee.
    I will be very brief because there are witnesses here with, 
I think, a lot of really valuable information that you should 
hear from in the course of your deliberations.
    I would like, No. 1, of course, to add the administration's 
enthusiastic endorsement of both of these pieces of 
legislation.
    And second, congratulate you for the emerging bipartisan 
interest in these issues that relate to endangered species. 
With Republicans and Democrats on the bill, Senator Jeffords I 
am told has now introduced comparable legislation in the 
Senate. It is my hope that the emergence of this legislation is 
a harbinger of more to come in the entire area of protecting 
wildlife and endangered species.
    The legislation extending the conservation fund simply 
builds on a demonstrated success. The Fish and Wildlife 
Service, I think, can point with pride to the way these 
appropriations have been parceled out in the range states in 
Africa and Asia. The money is moving down to the ground level 
of assisting in the administration of reserves, equipment, 
training, and that kind of thing.
    I would simply say that I believe the impact of these 
appropriations has gone way beyond just a dollar figure, in 
terms of match, in terms of demonstrating the commitment of the 
United States to take the lead and to be a strong partner in 
range state conservation.
    Lastly, a word about the product labeling legislation and 
its importance. The trade in rhino horn and tiger bone is still 
an enormous problem. I am told, for example, by the Fish and 
Wildlife Service, that a prime Asian rhino horn from which 
purchasers are delivered shavings onsite can command a price of 
$50,000 a kilo, which means that for poachers that rhino target 
out there in the range states is an animal worth a couple of 
hundred thousands dollars. That simply underlines the 
extraordinary importance of moving to shut down this trade.
    The administration has been working hard on this, through 
Pelly Amendment certification and, in the case of Taiwan, 
through trade sanctions which were levied back in 1995. Those 
tools are quite successful. We have had, I think, a significant 
turn around in Taiwan, in terms of legislation, administrative 
changes, and the emergence of Taiwan as a partner in solving 
the problem rather than being part of the problem.
    But this legislation today talks about our goal here in the 
United States. The fact is that there is a market flourishing 
for traditional medicines, including tiger bone and rhino horn.
    The Fish and Wildlife Service has taken the initiative with 
an educational campaign because the bottom line is that the 
purchasers of these traditional medicines are not criminals and 
the owners of the shops, for the most part, are innocent 
parties unaware of the larger problem here. As other witnesses 
can describe to you, these campaigns have had a real impact in 
changing patterns and practices, a particular success story in 
Los Angeles.
    But the bottom line is that behind the traditional culture 
of purchasers and small sellers is a large pipeline of 
distribution which cannot claim to be innocent, which is fully 
aware of the problem and really the lack of enforcement tools 
that have prevented us from cracking down on them.
    That is really the ultimate need for this legislation, is 
to say that we are going to have, and will have, criminal 
sanctions based on product labeling alone which the Service can 
apply at the point of entry into the United States, through the 
distribution channels quick, effectively, and unequivocally as 
a result of the violation of the law which says the violation 
is the labeling itself. It is for that reason that we 
enthusiastically support this legislation.
    Thank you.
    [The prepared statement of Secretary Babbitt may be found 
at end of hearing.]
    Mr. Saxton. Mr. Secretary, thank you very much.
    I am just curious, can you think of any reason why highly 
endangered species parts, of any kind, should be sold in our 
country?
    Secretary Babbitt. Mr. Chairman, I think the answer is no. 
In fact, there is a broad spectrum of issues here that you are 
well aware of, bear gall, a number of other issues, that 
presumably should have attention, as well.
    Mr. Saxton. We are aware of the bear problem as well and 
are looking at that as an upcoming project. One of the problems 
with the bear bill is it has gotten referred to a half a dozen 
committees and we would like to try to perhaps rewrite the bill 
to make it possible to streamline the process some.
    Secretary Babbitt. Mr. Chairman, one way to go about that 
would be to look at the CITES lists of all of these products 
and it might be possible, actually, to consider legislation 
which imposed these kinds of sanctions as a function of 
determinations that have been made by the CITES group itself.
    Mr. Saxton. Are there any changes, based on our experience, 
that we might want to look at with regard to the Rhino and 
Tiger Conservation Act?
    Secretary Babbitt. Mr. Chairman, I thought Mr. Maple had it 
just about right when he said yes, money.
    Mr. Saxton. Very good. Thank you. Mr. Miller?
    Mr. Miller. He is talking to the right guy.
    Thank you very much, Mr. Secretary. Let me ask you, does 
the Department have under consideration any further Pelly 
Amendment actions? Have you looked at this and matched this 
against activities in other countries with respect to this 
problem?
    Secretary Babbitt. Mr. Chairman, we have had a lively 
discussion about that. I think the consensus right now is that 
the Taiwan experience has really made a big difference in many 
of the Asian countries that we are working with, Korea, 
Vietnam, Laos, Thailand. I would say that at this moment, I 
think the Taiwan experience is still sufficiently resonant and 
has enough positive impact that we are not near a certification 
decision at this time.
    Mr. Miller. The reason I raise it is obviously there are 
very active discussions in the Congress and the administration 
and around the world about the IMF situation. I know that there 
are negotiations currently underway. As we know, fast track ran 
into serious problems because of both labor and environmental 
concerns, and a number of organizations are engaged in active 
conversations with the Secretary of Treasury and others about 
some of those concerns and how those can partially be 
addressed.
    When I see Indonesia is a serious problem with compliance 
with CITES and also has the Javan rhino, I just wonder whether 
or not there is an opportunity here to enter into those 
discussions as part of this because again, in some instances, 
we have very direct actions within these nations and these are 
the same nations now that are on the table for $18 billion of 
our money.
    I raise that because I know that the questions of both 
labor and environment are being raised in a number of forums 
with the Department of Treasury and others. I just wonder if we 
might look for an opportunity to join those. I do not suggest 
that IMF would hinge on this or not, but I think it is going to 
be an important consideration because it appears that we are 
down to some pretty serious thin margins, with respect to 
consideration of that legislation.
    If there are potential recipient countries that are in 
serious violation either of CITES or our efforts to deal with, 
certainly in this case with the tiger and the rhino, I think 
that those ought to be brought to the other party 
administration's attention.
    Secretary Babbitt. Mr. Miller, there is, I think, an 
interesting gap here that your comments go to. The CITES 
convention and the Pelly Amendment are aimed primarily at a 
fairly narrow spectrum, which is the trade issue. Underlying 
that is the larger issue of habitat conservation and classic 
species conservation. The CITES and Pelly Amendment really do 
not reach to that. It is a subject that I think could deserve a 
lot more attention.
    Mr. Miller. Thank you.
    Mr. Saxton. Mr. Secretary, thank you again for being here 
with us this morning, and for your extensive work on these 
issues. Members may have some additional questions. If so, we 
will submit them in writing.
    Thank you for being with us this morning.
    Secretary Babbitt. Mr. Chairman, thank you.
    Mr. Saxton. I will now introduce our second panel. On panel 
two, we have our friend Dr. Terry Maple, President and CEO of 
Zoo Atlanta; Ms. Kathryn Fuller, the President of the World 
Wildlife Fund. I understand Ms. Fuller is accompanied by Ms. 
Ginette Hemley, director of the international wildlife policy; 
and Dr. Lixing Lao, assistant professor, family medicine, at 
the University of Maryland.
    Welcome folks. If you would like to take your places. Let 
me just remind you, while you are on your way to your places, 
that we do have this 5 minute rule for all the appropriate 
reasons. Your full testimony, of course, will be included in 
the record. When you are in place and comfortable, Dr. Maple, 
please begin.

  STATEMENT OF DR. TERRY MAPLE, PRESIDENT AND CHIEF EXECUTIVE 
                      OFFICER, ZOO ATLANTA

    Mr. Maple. I represent the American Zoo and Aquarium 
Association and I am very grateful for the opportunity to 
support these two very important propositions.
    The American Zoo and Aquarium Association represents 182 
accredited institutional members and over 6,000 zoo and 
aquarium professionals. We attract over 120 million people who 
visit our member zoos and aquariums.
    We are very grateful for the concern and interest that this 
Subcommittee has shown for conservation, not only for the rhino 
and the tiger, but the African and Asian elephant and many 
other highly endangered and threatened species.
    AZA is very pleased, as well, that the Asian Elephant 
Conservation Act has now been signed into law. We will work 
hard to see that funding can be secured for this and the 
programs presented here today.
    As the Subcommittee is well aware, the situation facing all 
species of rhinoceros and tigers in the world has reached 
crisis levels with 95 percent of the tiger population having 
disappeared since the turn of the century. Today, fewer than 
11,000 rhinoceros and 6,000 tigers are left in the wild, and 
these numbers continue to drop rapidly.
    Since the 1940's, three tiger subspecies, the Caspian, 
Bali, and Javan have become extinct. The Sumatran rhino, 
numbering less than 500 animals, and the South China tiger are 
now among the most highly endangered mammals on earth.
    While pressure from an expanding human population and the 
development of natural resources to supply booming economies 
have certainly contributed to a decline in worldwide 
populations, poaching has taken center stage since the 1980's 
as the primary reason for the decline of these animals.
    The AZA strongly believes solving these serious problems 
requires a two-pronged attack. H.R. 2807 would ensure that no 
persons may import any product labeled or actually containing 
any species of tiger or rhinoceros or export any such products 
from the United States. While the bill would not affect the 
market within Asia, it would stop the increased importation of 
rhino and tiger products into the United States.
    According to a recent report by our friends at the World 
Wildlife Fund and the World Conservation Society, more than 50 
percent of all retail stores in North American Chinatowns 
continue to sell illegal endangered species products despite a 
20-year ban.
    Although all species of rhinos and tigers have been listed 
as Appendix I of the Convention on International Trade in 
Endangered Species for nearly 20 years, the prohibition on 
trade of these animals and their parts has not been well 
enforced in some Asian countries. Passage of H.R. 2807, 
combined with increased appropriations, will certainly be a 
bold step by the United States in ending the slaughter of 
rhinos and tigers in the wild.
    The AZA and other conservation organizations must continue 
educating the public on the harmful effects of purchasing rhino 
and tiger products. The 182 institutional members of AZA are in 
a unique position to help.
    For example, in this past year, AZA unveiled a new 
traveling exhibit designed to promote the survival of the 
tiger. The AZA Save the Tiger traveling exhibit Tiger in Crisis 
is designed to help education people about tigers, the problems 
they face as an endangered species and the efforts zoos and 
other conservation organizations are making to save them. This 
exhibit was funded by the Exxon Save the Tiger Fund program of 
the National Fish and Wildlife Foundation.
    The zoos and aquariums of AZA have also greatly expanded 
their conservation efforts well beyond their gates. We are 
involved in many field conservation programs on every 
continent, including rhino and tiger conservation programs in 
Asia and in Africa.
    AZA zoos have also had the fortune of maintaining a number 
of endangered species under our care, which has given us the 
opportunity to develop successful techniques in reproduction, 
animal radio and satellite telemetry, veterinary techniques, 
genetic makeup, and population densities and disease control. 
These have been transferred to field conservationists who have 
used them well to work with tigers, rhinos and other creatures 
in the wild.
    The AZA strongly supports the reauthorization of the 
Rhinoceros and Tiger Conservation Act. The AZA especially 
believes the Rhinoceros and Tiger Fund has already proven 
itself effective for critical conservation programs in Africa 
for the highly endangered northern and southern black 
rhinoceros, and for developing workshops in India and Indonesia 
for improving enforcement programs.
    Fourteen projects at a total of $251,000 were funded in 
1996. Like the African Elephant Conservation Fund, this fund is 
designed to be a quick strike in assisting conservation 
organizations on the front lines in saving these animals from 
extinction.
    We support it and we hope that it can be elevated in 
funding to that level appropriate for elephants in Asia and 
Africa. Thank you.
    [The prepared statement of Mr. Maple may be found at end of 
hearing.]
    Mr. Saxton. Dr. Maple, thank you very much.
    Ms. Fuller?

 STATEMENT OF KATHRYN FULLER, PRESIDENT, WORLD WILDLIFE FUND, 
   ACCOMPANIED BY GINETTE HEMLEY, DIRECTOR OF INTERNATIONAL 
              WILDLIFE POLICY, WORLD WILDLIFE FUND

    Ms. Fuller. Thank you, Mr. Chairman. And thank you very 
much, on behalf of World Wildlife Fund, for your leadership on 
these and other species conservation issues.
    World Wildlife Fund is an organization created in 1961. It 
works in about 100 countries around the world to save species 
and their habitat. There have been no higher priority species 
for us in our history than rhinos and tigers.
    I am here this morning to make four basic points within the 
framework of a very enthusiastic endorsement of both bills. 
First, reauthorization of the Rhino and Tiger Conservation Act 
of 1994 and appropriations to the special fund it creates are 
very important.
    The statistics that you have heard from Dr. Maple already 
are, of course, pretty grim. But there is some good news. In 
places where we have seen infusions of small amounts of funding 
through this fund, through the African Elephant Fund in that 
example, you can see real progress and in a very short period 
of time.
    In Siberia, where the world's most majestic tigers live, 
the pressure was enormous, the tiger populations plummeting. 
The community came in with very small amounts of funding to 
increase anti-poaching assistance with the result now that the 
Siberian tiger population appears to have stabilized.
    The black rhino population across Africa, again with modest 
amounts of funding, is stabilizing. The one-horned rhino 
populations of Southern Nepal are actually rapidly increasing 
as a result of support through the Rhino and Tiger Conservation 
Act, support from non-governmental organizations like World 
Wildlife Fund and other agencies.
    We would very much like to see not only the reauthorization 
but funding of this Act at the $1 million level, which is where 
the request is for both the African and the Asian Elephant 
Conservation Acts.
    Second, we think that the Rhino and Tiger Product Labeling 
Act is enormously important. The limitations on enforcement of 
existing laws to get these products labeled as containing rhino 
horn and tiger bone are quite significant. Agents and 
inspectors have to be able to prove what is in these products 
if they find them in large shipments at the ports of entry or 
in the shops themselves, and that is no easy matter.
    In fact, the forensics are so limited currently that the 
best you can do is tell perhaps that something contains bone. 
You cannot even tell, if you are looking for tiger bone, that 
it is cat bone. So being able to address the problem of product 
labeled as containing rhino horn and tiger bone is quite 
significant. Just having those products in the marketplace, 
whether or not they contain rhino and tiger parts, perpetuates 
a market that is driving additional poaching in the wild.
    Third, we would urge the U.S. Government to maintain and 
even increase the priority it has placed on enforcement of 
existing authority it has to protect rhinos and tigers in U.S. 
marketplaces and to, with passage of the new labeling Act, to 
take forward the good experience in Los Angeles of helping to 
reduce the availability of these products in the marketplace, 
and intensify its efforts particularly in ports of entry, where 
the Fish and Wildlife Service is already present.
    The report that World Wildlife Fund's trade monitoring arm, 
TRAFFIC, issued recently called While Supplies Last: the Sale 
of Tiger and Other Endangered Species Medicines in North 
America, shows that here in our own backyard, in seven North 
American cities, almost 50 percent of the shops, 110 shops 
surveyed, were found to have products that appeared to contain 
rhino horn and tiger bone.
    And finally, we invite the Congress, the administration, 
other non-profits, and the zoo community to join us in a 
national outreach effort with the traditional Chinese medicinal 
community. We are now working, at World Wildlife Fund, with the 
American College of Traditional Chinese Medicine on better 
outreach to that community to help identify culturally 
appropriate substitutes to the use of products that contain 
rhino horn and tiger bone.
    Thank you very much.
    [The prepared statement of Ms. Fuller may be found at end 
of hearing.]
    Mr. Saxton. Thank you very much, Ms. Fuller.
    Ms. Hemley, I understand that you are going to be available 
for questions, but that you do not have an opening statement?
    Ms. Hemley. That is correct.
    Mr. Saxton. Thank you. Dr. Lao?

   STATEMENT OF DR. LIXING LAO, ASSISTANT PROFESSOR, FAMILY 
                MEDICINE, UNIVERSITY OF MARYLAND

    Dr. Lao. Thank you. Good morning. My name is Lixing Lao and 
I am both a Doctor of Oriental Medicine and a Ph.D. I am here 
be-

fore you on behalf of the American College of Traditional 
Medicine in San Francisco, the Maryland Institute of 
Traditional Chinese Medicine at Bethesda, and the Complementary 
Medicine Program at the University of Maryland School of 
Medicine.
    The following is a joint statement prepared by Ms. Lixing 
Huang, the president of the American College of Traditional 
Chinese Medicine, and myself.
    We would like to thank the members of the Committee for 
providing the opportunity to testify today about the critical 
need for ensuring safe habitat for the endangered tiger and 
rhino, and about the most effective and pragmatic ways to 
achieve that goal in the near future.
    1998 marks the Year of the Tiger in the Chinese calendar, 
which began on January 28th, the Chinese New Year. In the 
Chinese culture, the tiger is regarded as the king of the 
wildlife, a symbol of energy, strength, speed, agility, and 
power, as well as of threat and danger. There are a number of 
Chinese idioms with the character representing tiger in them.
    To describe, for example, an individual or a business 
within certain conditions as being more successful, it is often 
expressed as tiger with wings. To praise active, healthy and 
energetic people, they are called a tiger come to life. The 
accomplishment of a task that includes great risk or danger is 
described as pulling the teeth out of a tiger's mouth. To have 
worked with a fine start and a poor finish is described as in 
like a tiger, out like a lamb.
    For many, many years, people of Chinese descent have had an 
affinity for the image of the tiger, which has been reflected 
in the language, in literature, graphics, art and medicine.
    Traditional Chinese medicine, known as TCM, and acupuncture 
has been developed over several millennia as an integral part 
of Chinese culture. In the United States, 34 states have passed 
legislation to support the practice of acupuncture and Chinese 
medicine and consumer demand has resulted in a growing number 
of insurance carriers and HMOs making some oriental medicine 
available.
    The exploitation of the tiger and other endangered species 
for use in patent traditional Chinese medicine has been a major 
conservation concern over the last decade. Our associates in 
the World Wildlife Fund and in the Wildlife Conservation 
Society have already testified to the overwhelming threat faced 
by tigers in the wild, and we need not underscore the 
continuing threat to human life posed by the decreasing 
biodiversity of the planet.
    Although CITES has banned the trade in tiger parts and 
products for over a decade, illegal commerce has continued 
because of the consumer demand, even though viable and 
effective alternatives to parts from endangered species are 
available. One of the key problems to be addressed is the lack 
of education about the alternatives to the use of endangered 
species parts among both consumers and practitioners.
    One of the other major problems is the perception, because 
TCM is so thoroughly a part of Asian culture, that conservation 
efforts are a result of cultural imperialism and insensitivity. 
The initial approach to the problem of severe international 
mandates and government enforcement did not service to increase 
understanding.
    Therefore, there is an urgent need for a new conservation 
approach.
    An effective and pragmatic approach would be to educate 
consumers and, rather than impose upon, to work with TCM 
communities, bringing the awareness of the need for tiger 
conservation and useful medical alternatives directly into the 
community.
    The World Wildlife Fund and our organizations have joined 
together in an effort to take this new conservation approach. 
Together, we have developed an outreach program which will 
serve as the first systematic effort in North America to 
educate TCM users and practitioners, both those within and 
outside of the Asian-American communities about endangered 
species issues. We will use culturally sensitive approaches and 
community based educators to reach each target audience. In 
addition, we will be joining several conferences and holding 
our own symposium in San Francisco on tiger conservation and 
TCM.
    What our organizations and our colleagues now need from the 
Committee is not only this helpful public airing of these 
issues, but a commitment to help us secure the necessary 
private, and perhaps public, financial support to carry out 
this critical plan of education and outreach. We need an 
indication that you understand the gravity of the issues, and 
the usefulness and pragmatism of our approach to addressing 
them. In essence, we need for the Committee not to go in like a 
tiger and out like a lamb, but to instead pull that bad tooth 
from the mouth of the tiger so that the tiger can come alive 
and our project can be like a tiger with wings.
    Please do whatever is in the scope of the Committee and of 
our individual offices to help us make this a year for the 
tiger. Thank you very much. We very strongly support the 
legislation.
    [The prepared statement of Dr. Lao may be found at end of 
hearing.]
    Mr. Saxton. Thank you, Dr. Lao.
    Dr. Lao, in your statement, you say there is an urgent need 
for a new conservation approach. Are you referring, sir, to----
    Dr. Lao. Education approach, which is more education 
approach. Instead of oppose, rather educate the people to 
understand why they must support this. And also, people will 
understand there are lots of alternative parts we can use. For 
example, in China they have research that indicates you can use 
pig bone instead of tiger bone as medicine.
    Mr. Saxton. What is your feeling about the labeling bill 
that we are discussing today?
    Dr. Lao. I strongly support the legislation.
    Mr. Saxton. Thank you.
    Dr. Maple and Ms. Fuller and Ms. Hemley, in general, how 
large do you believe the problem of medicines being imported 
into the United States is, and to what degree does this affect 
the taking of tigers and rhinos?
    Ms. Fuller. We are quite concerned about the U.S. market. I 
had a chance to mention, in the press briefing we did earlier, 
that some of the work that WWF and its trade monitoring arm, 
TRAFFIC, have done to survey markets in China itself have shown 
that the availability of these products has gone down, and yet 
they are really on the increase here.
    That suggests to us that there is a very deliberate illicit 
trade, a pipeline to the United States, that is not going 
directly into Chinese markets, whether it is stockpiles or new 
products that are being manufactured specifically for our 
market.
    Mr. Saxton. Ms. Hemley?
    Ms. Hemley. Just to add to that, Mr. Chairman, one of the 
conclusions of the TRAFFIC study that was completed a couple of 
weeks ago is that there appears to be a wider variety of 
medicines labeled as containing tiger bone on the U.S. market 
now than ever before. We need to get at the root of the 
problem, obviously.
    The markets in China appear to be much reduced, as you 
heard earlier, but we are not sure where these products are 
coming from. The United States needs to engage in dialog with 
the Chinese government to investigate if these are still being 
produced in factories in China.
    In terms of gauging the impact on tigers in the wild, it is 
obviously very difficult to do. But one of the concerns we have 
is that with the U.S. emerging as a bigger market than we had 
previously thought, clearly something needs to be done. CITES 
has called upon all countries to pass the kind of legislation 
that we are discussing today, so regardless of the numbers that 
are being killed, we know that tigers are still being killed 
and the U.S. is likely to be contributing to that.
    Mr. Saxton. Can you speak, there are what, 1.2 billion 
Chinese people that live in China? Is this a problem there as 
well? And how does that problem--I mean, it seems like there is 
such an immense population and if the cultural events occurring 
with regard to this subject there, do they dwarf the problem 
that exists here? Or is this a more significant part because of 
American economics and availability of moneys to be spent on 
these types of medicines?
    Ms. Hemley. One of the things that we have discovered is 
that the open markets in China are not showing as much trade in 
these products as 5, 6 or 7 years ago. China did, in 1993, 
enact a very strict law that, somewhat to our own surprise, 
seems to be quite well enforced on the market there. China has 
banned the trade and sale and manufacture of medicines 
containing rhino and tiger.
    China is the heart of traditional Chinese medicine and 
whatever happens there does impact the rest of the world. I 
think the emphasis that we need to place on this issue, in 
terms of the products, is on substitutes. To that end, as Dr. 
Lao has said, the good news from China in recent months is that 
there are substitutes available. We understand the Chinese 
government is promoting them. That is, I think, where we really 
can make progress in stemming the demand.
    Mr. Maple. One point I would like to make on this issue is 
that this is kind of an interesting question that normally you 
apply these funds in the field, in the range countries, and 
certainly education in China is very important, throughout the 
Far East, in fact.
    But in America, really, this is an example of targeted 
social marketing and we are pretty good at this sort of thing 
normally, and I think we really do need to get together. I 
think the AZA and WWF, for example, might get together to focus 
efforts on these Chinese communities.
    I am quite excited about returning to Atlanta to begin an 
educational process there, but we will have to allocate funds 
from some source to be able to get those issues to the people 
that need to know about this.
    Mr. Saxton. Thank you. My time is about to expire, but just 
for the record, let me ask the administration has requested 
$400,000 for the Rhino and Tiger Conservation Fund in the next 
fiscal year. Do you believe that is enough? If not, what should 
the number be?
    Mr. Maple. We would like $1 million. We think that is a 
good start.
    Ms. Fuller. We concur.
    Mr. Saxton. Thank you. Mr. Miller?
    Mr. Miller. Thank you, Mr. Chairman. Let me, Ms. Hemley, 
just to follow up on the question the Chairman asked on the 
China market, in your report on 33 you discuss the China market 
and the laws that have changed. And then you list a series of 
manufacturers. Would those manufacturers not be manufacturing 
contrary to the law?
    Ms. Hemley. They could be. They could also be exporting 
stockpiles of medicines that were manufactured before the 1993 
Chinese ban. I known the administration has tried to get 
information from China to ascertain the source of some of these 
medicines. Clearly, more investigation is needed.
    Mr. Miller. So when you are making tiger bone wine, and you 
list four factories in China that do this, conceivably they 
could be making this legally within the law?
    Ms. Hemley. No, they cannot be manufacturing it now.
    Mr. Miller. You said from stockpiles or something.
    Ms. Hemley. They may have existing stockpiles of products 
that were manufactured before 1993.
    Mr. Miller. The product would have had to have already been 
manufactured?
    Ms. Hemley. Right, so they could have stockpiles there. 
However, the fact that we have found more new products, at 
least more labels, currently on the market makes us wonder just 
what is going on. It appears that manufacturing could be going 
on now in China illegally.
    Mr. Miller. So it may or may not be that this is a list of 
manufacturers who could be manufacturing illegally or their 
products on the shelves in the cities you investigated may or 
may not be there contrary to Chinese law? You do not know that?
    Ms. Hemley. We do not know definitively.
    Mr. Miller. Dr. Lao, your testimony is that--and I ask you 
if this is testimony on behalf of the Traditional Chinese 
Medicine Institute--that there are effective substitutes for 
these products; is that correct?
    Dr. Lao. Yes. These products are used for many years. But 
however, I want to point out that even though in thousands of 
years of Chinese medicine, using the products in the medicine, 
but it is a very small component. It is not a major--there will 
not an impact on practice. I have been practicing many, many 
years and I never use any kind of this medicine.
    Mr. Miller. If it was a major component, we would not be 
here today, it would have unfortunately gone by us. But I think 
it is im-

portant that we establish that your testimony is that there are 
effective alternatives to the medicinal use of these parts?
    Dr. Lao. Yes.
    Mr. Miller. Now we get back to the legislation. How do you 
respond to the charge, other than people would engage in 
illegal activity, that when we do this we then create a black 
market, if you will, which probably already exists? To those 
people who still insist on, either for traditional beliefs or 
however, that they still want the parts of these tiger or 
rhino?
    Ms. Fuller. The black market, you know, it is illegal to 
stand these products in interstate commerce, to begin with.
    Mr. Miller. I understand that.
    Ms. Fuller. So the black market exists. The real issue has 
been education. It is a central piece of this and I do think 
that, working with the traditional Chinese medicinal community, 
the U.S. Government, the zoo community, organizations like WWF, 
we can make significant inroads.
    Consumer behavior does change very dramatically with a 
combination of enforcement and public awareness. We have seen 
that, for example, with the wild bird trade. Congress enacted 
wild bird legislation. The number of illegally smuggled birds 
in the United States plummeted dramatically. So I think it can 
have a real effect.
    Mr. Miller. I think that is an important point and again, 
Terry suggested that you want to do this education, you want to 
go back to Atlanta and do this education. I do not know if we 
can do it in this bill or not, but I think that transitional 
education is an important part of this when you are dealing 
with people's traditional concepts of medicines and, as Dr. Lao 
has pointed out, this is not newly found.
    This is been part of, in the case of the Chinese culture, 
has been this way for thousands of years about the tiger and 
all of its related cultural aspects. So when you start 
substituting and taking products off of the shelf, I think it 
would be very helpful to have some kind of educational 
component for people. Otherwise, I think you almost reinforce 
the belief that the tiger parts or the rhino parts are what you 
really want if you really have an ailment, as opposed to some 
kind of transitional education program.
    Mr. Maple. We could do a wonder of good by targeting this 
next generation. I think we could do wonderful things.
    Mr. Miller. We always put these burdens on the next 
generation, but you are right.
    Ms. Fuller. But interestingly, of course, the change in 
legislation and the educational effort in China and the formal 
promotion of alternatives by the Chinese government has made a 
huge difference in that country.
    Mr. Miller. I see my time is up, but thank you very much 
for your support and for your testimony on this. I look forward 
to working with you.
    Mr. Saxton. Thank you, Mr. Miller. Before we move to Mr. 
Farr, let me say to you folks who are standing in the back, if 
you would like to take a seat up here if you are weary of 
standing, please feel free to just walk right up here and take 
a seat or at the table. Help yourselves.
    Mr. Farr?

 STATEMENT OF HON. SAM FARR, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF CALIFORNIA

    Mr. Farr. Thank you, Mr. Chairman. First of all, I want to 
thank you for having this hearing. I think it is too bad that 
it is not better attended, particularly that it is not on C-
SPAN, because I think this is the kind of issue that the 
American people want Congress to be discussing.
    I have a question for anybody on the panel. One of the 
complaints that I have heard, and not necessarily related to 
tiger and rhino issues, is that the native take of endangered 
sea mammals, specifically the ability of natives to harvest 
certain species and then use those parts for artistic purposes, 
is essentially creating a loophole in the law. In other words, 
using the claim that these are allowable native takes, is 
getting a lot of endangered species products into the market.
    Have you noticed any of that? Is that a problem with 
species that we are dealing with here today?
    Ms. Fuller. Ginette Hemley has worked extensively on 
International Whaling Commission and other marine mammal 
issues, and I think is probably well-versed in the issue.
    Ms. Hemley. I am not aware of that kind of problem applying 
to the tiger and rhino issues that we are discussing here today 
and I know it has been raised as an issue in the context of 
some whale takes and other marine mammals, walrus and seals. So 
as far as rhinos and tigers go, it is essentially the poaching 
for the open, illegal commerce that is driving the problem.
    And addressing that, both at the range state and in the 
field, with increased moneys for anti-poaching and now, as we 
are discussing here today, the consumer end, coming at it from 
both sides is really going to be the way to address it.
    Mr. Farr. What do you think we, as the Congress, can best 
do? Passing legislation can be important, but if the world does 
not know about it, it is just another law on the books. It 
seems to me that most of this effort we go through is a matter 
of trying to educate people that there are rights and wrongs 
and that we, in enacting laws, make things wrong and subject to 
penalties. But it is not enough.
    I have been in enough elective offices to know that that is 
not the final answer. Getting a law on the law book does not 
necessarily solve the problem if the world does not know the 
law is there.
    So you are speaking to a group of lawmakers. Are there any 
suggestions you have as to how we can use our roles as Members 
of Congress to----
    Mr. Maple. Personally, I would like to see more elected 
officials talking about conservation. When I was flying in here 
and I was reading The Hill, looking at the issues that both 
parties were addressing in the next year, and not a single line 
about conservation or about environmental issues of this kind.
    So I think we all have an obligation to speak out a little 
more loudly, a little more frequently. You mentioned C-SPAN. I 
wish they were here. They rarely cover issues of this type. It 
would be very good for them to do so.
    We just need to put it on the radar screen. It is very, 
very important that we do so.
    Ms. Hemley. Just to add to that, I think the collective 
efforts, as demonstrated here today with the various types of 
panelists, in the last couple of years we at World Wildlife 
Fund have joined with the Traditional Medicine community, with 
the zoo community and others, as well as Members of Congress. 
And that alone has really helped elevate the issue.
    In Los Angeles, the Fish and Wildlife Service has 
effectively run an interagency task force that has really made 
an impact on the availability of medicines in Los Angeles, 
again working broadly with the different agencies as well as 
the traditional medicine community.
    So that is, I think, where we can really make some move 
forwards. And this year, being the year of the tiger in the 
Chinese calendar, as Dr. Lao mentioned, is a key opportunity to 
really elevate awareness and I think we are off to a good start 
with this hearing.
    Mr. Farr. But in that, we are going into a new era of 
collaboration. It seems to me that what is really important 
here is to develop these collaborative efforts. It may be rhino 
or tiger, but that is not really the issue. It is how do you 
mobilize society to eliminate things that are unwanted or 
declared illegal? And that is a process where I think 
governments can be much more effective.
    We seem to only be able to do these collaborative things 
when there is a national priority. Take drug issues, for 
example. There used to be the fight between whether it was 
local control, State control or Federal control. Now we have 
all these enforcement agencies working in collaboration without 
regard to whose jurisdiction it is.
    We have not yet done that in this field very well, except 
in the instance that you indicated in Los Angeles. There is 
probably something we can do to make those collaborations work 
better all over the world.
    Ms. Fuller. Those of us in the conservation community, 
particularly organizations like World Wildlife Fund that have 
been field-based historically, putting money into specific 
parks and protected areas, species conservation work, we have 
really broadened our own set of activities to say to ourselves 
it is all very well and good to have a local success, but 
unless you really can influence the broader public, both in the 
United States and in other countries around the world, we are 
not going to be successful in conservation for the long term.
    So we are investing more and more every year in public 
outreach, looking for collaborative partnerships with all 
stakeholders on an issue to elevate awareness and change 
behaviors. So we welcome opportunities to reach out.
    Mr. Farr. I would be interested in following up. If you 
have any ideas of how we might create incentives to encourage 
those collaborations to be developed, I think that is where 
Congress could play a very effective role.
    Mr. Maple. That is one of the great things about this fund 
is that it does encourage collaboration, the elephants funds as 
well. We are seeing more and more of this, and I delight at the 
collabo-

ration at this table, and I believe that that is the secret to 
solving these problems.
    Mr. Farr. Thank you, Mr. Chairman.
    Mr. Saxton. Thank you very much, Mr. Farr.
    Dr. Maple, Ms. Fuller, Ms. Hemley, and Dr. Lao, thank you 
very much for your contribution and for taking time to be here 
with us today. Your contribution today, as always, has been 
very valuable. Thank you very much.
    We will now move to our third panel. We have Ms. Dorene 
Bolze, senior policy analyst with the Wildlife Conservation 
Society; Dr. John Seidensticker, curator of mammals at the 
National Zoological Park here in Washington; Mr. Richard 
Parsons, Safari Club International; and Dr. Thomas Foose, 
program officer of the International Rhino Foundation.
    Ms. Bolze, when you are prepared, you may begin.

  STATEMENT OF DORENE BOLZE, SENIOR POLICY ANALYST, WILDLIFE 
                      CONSERVATION SOCIETY

    Ms. Bolze. I would like to thank the Subcommittee for the 
opportunity to express the Wildlife Conservation Society's 
support for these two bills today. We are a member of AZA, we 
are based out of the Bronx Zoo, and we have been dedicated to 
protecting wildlife since 1895.
    In 1995, we launched a specific and concentrated effort 
called the WCS Tiger Campaign, which is a suite of research and 
conservation efforts throughout the range of the tiger. One of 
the important aspects is that it includes the first program in 
mainland China to reduce demand for these products.
    You have been talking today a lot about what is really 
social marketing, and that is what we have launched in mainland 
China. We are going to see how well it works.
    I have attached a summary of the tiger campaign to my 
written testimony if you are interested in other details.
    Since we have had a number of panelists speak eloquently in 
support for the Rhino and Tiger Conservation Fund, I would like 
to focus my 4 minutes or so to the Rhino and Tiger Product 
Labeling Act. I guess the one important message that we would 
like to say regarding the fund is that we would love to see it 
fully financed at $10 million. We do not understand why we are 
still bickering over $1 million.
    In 1996, when I testified before this Subcommittee on the 
fund, I brought to its attention this whole problem of the 
illegal trade of tiger and rhino products in the U.S. and the 
need for this labeling bill. At that time, there was a bill in 
the Senate that Senator Jeffords had introduced.
    The sale of these products is fueling poaching of these 
species in the wild, and we know that from a lot of our field 
projects in Indochina. There is no question that this is a 
serious problem in a lot of places for tigers and for rhinos. 
These products are patently illegal under CITES.
    The Wildlife Conservation Society just completed a market 
survey in New York City. Our report, along with the TRAFFIC 
study, was jointly released for the press a couple of weeks 
ago, and we generated some press attention on this issue. A 
copy of this report is in your packets. We have a second 
printing and more copies will be available next week.
    We found that 67 percent of the herbal stores in New York 
City carry illegal tiger products, and we found that most of 
the store owners knew that it was illegal. Interestingly enough 
though, most of the people in the Chinese community are not 
aware of the problem.
    We combined our market study work with efforts in a pilot 
outreach project, which I will discuss in a second.
    It is ironic, as you know, that these products are illegal 
and difficult to obtain in China, according to a separate 
TRAFFIC study, and yet these products were manufactured in 
China and they are found all over the United States.
    Something else we found with some of the products we were 
able to obtain is that their lot numbers indicate that some of 
them were manufactured upwards of 10 years ago. We do not know 
if this implies that there are some stocks that have been in 
the U.S. for that long, or whether these are stocks that are 
illegally leaving China, but there are a lot of unanswered 
questions.
    Nonetheless, the U.S. needs to take action. First, the 
Department of Interior needs to make law enforcement on the 
illegal trade in tiger and rhino products a priority. They did 
this in Los Angeles and it worked. Only one shop in 17 was 
found to have a tiger or rhino product for sale. But as far as 
we know, there has been no such effort anywhere else, and this 
is really inexcusable, especially since the Fish and Wildlife 
Service has known about this problem for several years.
    As you probably know, some of this inaction has to do with 
the limitations in the ESA and in some of the State laws. In 
New York State, they are very interested in trying to remove 
these products from the shelves but they are deeply concerned 
that if they seize these products they will not be able to 
prove that they actually contain tiger or rhino as ingredients. 
So therefore, secondly, we need the Rhino and Tiger Product 
Labeling Act and we need it as soon as possible. It would 
really facilitate efforts in law enforcement.
    I would like to make the recommendation, and I think some 
of the panelists already have, that if possible the Committee 
should explore how to broaden this bill beyond tigers and 
rhinos so that it applies to claims to contain species listed 
on Appendix I of CITES and those that are listed as endangered 
under the ESA. It just seems obvious that products should not 
be allowed to claim they contain species whose trade or use is 
prohibited.
    Thirdly, we need to get these products off the shelves 
tomorrow, regardless of whether we have the Product Labeling 
Act. There are ways of doing this and exploring this. The 
Department of Interior really has not given that a lot of 
focus. They have done a fair amount of work in Los Angeles with 
focusing on imports rule.
    These products potentially violate food and drug safety 
laws and product labeling laws, which are the jurisdiction of 
the FDA, and the FDA has really not shown much interest. We 
really would like to encourage the Department of Interior and 
the FDA to explore these options so that these products can be 
removed from the shelves.
    In conclusion, regardless of whether these products 
actually contain tiger or rhino ingredients, their presence on 
the shelves maintains the demand for authentic ingredients. 
They must be removed. We really would want to encourage the 
Department of Interior to make this a top priority action. And 
of course, we would love to see the Rhino and Tiger Product 
Labeling Act passed as swiftly as possible.
    Based on our own work in New York City with pilot outreach 
efforts and on other studies, we have learned that the Chinese 
consumer and the American public in general is just simply 
unaware that the purchase of these products is directly related 
to poaching of these species in the wild. However, one of the 
encouraging things we learned with our pilot effort was that it 
was not that difficult to make that connection and actually to 
get people to want to take specific action, such as informing 
others to avoid using these products.
    This is classic social marketing efforts. It is the key to 
reducing demand and eliminating the black market.
    WCS really believes that additional financial resources are 
needed for stepped up law enforcement, to develop the reliable 
forensic tests, to do public outreach efforts. We want to see 
that going into increased budgets to the Department of Interior 
and not coming out of the Rhino and Tiger Conservation Fund. 
These funds should be applied to the countries where there are 
scarce resources to devote to conserving the tiger and the 
rhino in the wild.
    Thank you very much for the opportunity to testify. We 
fully support these bills and we are willing to do whatever it 
takes to help pass them.
    [The prepared statement of Ms. Bolze may be found at end of 
hearing.]
    Mr. Saxton. Thank you very much for your very eloquent 
testimony. We have a 15 minute vote followed by a 5-minute vote 
and so, rather than to go further at this point, we are going 
to vote. We will be back and that way we will be able to hear 
your testimony in a more relaxed atmosphere. Thank you.
    [Recess.]
    Mr. Saxton. I believe we were about to move to our next 
witness, Dr. Seidensticker, who is taking his place. Doctor, 
the floor is yours.

 STATEMENT OF JOHN SEIDENSTICKER, CURATOR OF MAMMALS, NATIONAL 
                        ZOOLOGICAL PARK

    Mr. Seidensticker. Good morning. Thank you for inviting me 
here today, Mr. Chairman.
    About 25 years ago, I led the team that put the first 
transmitter on a tiger in Nepal, a radio transmitter. I was 
working in Indonesia at the passing of the last Javan tigers. 
Believe me, to watch a species or subspecies go extinct is a 
horrible experience. It is like losing a family member.
    There is great trouble in tiger land. The tiger is in 
crisis. Tiger poaching and trade in tiger parts and products 
have not been stopped in the tiger range states or 
internationally. The great protectors, which are suitable 
habitat and adequate prey populations really are shrinking at 
human hands. Much of the tiger's survival problem today can be 
traced to human poverty and increased accessibility to tiger 
habitats.
    Three of the eight tiger subspecies are extinct. The 
remaining five subspecies are endangered. Their remaining 
populations are carved up into more than 160 fragments 
separated by inhospitable habitat. We will lose the tiger, the 
very symbol of power and grace in wild Asia, unless we 
immediately take up the challenge of saving the tiger.
    To save the tiger in its principal habitats and its 
essential prey populations, we must have the support of those 
people that live with tigers on a daily basis and are directly 
impacted by tigers living in their midst. We must make live 
tigers worth more than dead tigers for these people and 
landscapes with tigers worth more than landscapes without 
tigers.
    To save the tiger we must have the support of the 
decisionmakers who make the hard decisions. We can help by 
reducing incentives to poach tigers and by providing road maps 
for reducing human-tiger conflicts and incentives for making 
tigers worth more alive than dead.
    To save the tiger we must engage the public and gain broad 
public support because the public must be a partner in saving 
the tiger because it is the public that supports the legal 
framework that protects tigers and foots much of the bill. An 
ongoing public education program is of highest priority.
    There are good building blocks for realistic tiger 
conservation in place. Money, political will, key legislation 
and cooperation and integration are really needed to start 
cementing these building blocks together into a future for the 
tiger. Partnerships are beginning to show that there is a hope 
for the tiger's future and we must encourage such partnerships.
    In the Russian Far East, for example, there is hope for the 
outlook for the Siberian, or Amur, tiger, where it was really 
quite grim just 3 years ago. The Save The Tiger Fund joined 
with the World Wildlife Fund and many other organizations, 
including USAID, and invested in an anti-poaching program and 
research on the tigers' needs and survival. And most 
importantly, into taking this research and turning it into an 
ongoing land use planning process that includes the tiger for 
the future.
    The fund has joined with these same partners in a 
remarkable collaboration in the lowlands of Nepal adjacent to 
the Royal Chitwan National Park to create six square miles of 
new critical habitat where there was only degraded forest 
patches when I worked there years ago. This is a model program 
that can be adapted to many tiger areas in the future to give 
incentives for those people living near tigers to keep them 
alive.
    We must respond to both the short and the long-term 
processes facing this splendid great predator to save it. We 
must stop the poaching and provide the training and other law 
enforcement activities to control this. We must sustain the 
legal structure of CITES to control trade in tiger parts and 
their products.
    The programs that curtail tiger poaching must go hand in 
hand with convincing users that there are alternatives to 
medicines made of tiger parts, and we must act to take tiger 
bones out of traditional Chinese medicine. We must build on the 
existing beginning of partnerships with TCM users and 
practitioners to gain their support in saving the tigers and 
also have a substitute for tiger bone in TCM that is 
sufficiently sanctioned.
    We must plug the gap in our national legislation. If the 
product label indicates the product contains rhino or tiger 
parts, it must be treated as legally so. We must give this tool 
to our conservation agents if we are going to make headway here 
at home to save the tiger. This reduces the incentive for 
poaching tigers, but more importantly the message is we care 
about the tiger's future.
    The endangered tiger is an indicator of ecosystems in 
crisis and we must direct our attention to the tiger's long-
term future and support sustainable ecosystems and landscapes 
in terms of resource production that also sustain valuable 
tiger populations. Protecting tigers means managing habitat for 
long-term rather than short-term exploitation for forest 
products.
    Many of the remaining tiger habitats are also critical 
watershed protection areas and long-term sustainable management 
for these areas is essential for all those who live downstream. 
This is good for people living in tiger land, for their 
economy, and in the long term the tiger benefits.
    We are at an important, critical juncture where continued 
and expanded financial support for such programs that are an 
integral part of the Rhino and Tiger Conservation Act is a key 
to securing the tiger's future.
    Thank you.
    [The prepared statement of Mr. Seidensticker may be found 
at end of hearing.]
    Mr. Saxton. Thank you very much, Doctor. Mr. Parsons?

   STATEMENT OF RICHARD M. PARSONS, DIRECTOR, DEPARTMENT OF 
  WILDLIFE CONSERVATION AND GOVERNMENTAL AFFAIRS, SAFARI CLUB 
                         INTERNATIONAL

    Mr. Parsons. Good morning, Chairman Saxton. My name is 
Richard Parsons and I am the director of the Department of 
Wildlife Conservation and Governmental Affairs for Safari Club 
International. We appreciate the invitation to testify before 
the Subcommittee.
    We support the passage of both H.R. 2807 and H.R. 3113, 
although in the case of H.R. 2807, we would like the 
opportunity to work with the Subcommittee to include some 
language that would avoid possible unintended impacts on legal 
shipments.
    In regard to H.R. 3113, the reauthorization bill, we 
testified in support of the passage of the original Rhinoceros 
and Tiger Conservation Act. In fact, we worked with the 
sponsors to help develop that legislation.
    We definitely support the continuation of funding for this 
important piece of conservation legislation and, like all the 
speakers before me, we would like to call on the administration 
to increase their request for funds during the appropriation 
process so that the many needed programs for rhino and tiger 
conservation can be considered and funded.
    We would like to take this opportunity to discuss for a 
moment the important role that sport hunting plays in the 
conservation of rhinoceros. Both international and United 
States law allow the im-

portation of sport hunting trophies from one subspecies, the 
southern white rhino. We would like to submit for the record, 
and we have in our testimony, the following points on the 
benefits of this particular program in the range state itself, 
in South Africa.
    The program involves the taking of approximately 40 animals 
per year out of a population of more than 4,200, which is only 
1 percent of that population, well within the limits of 
sustainability. The shipments are strictly controlled. There is 
no indication of illicit trade.
    In managing that species, expenditures can go up to $1,200 
per square kilometer per year. The hunting activity itself has 
generated more than $22 million, much of which has been 
reinvested in management of that species. The species has 
climbed from 4,000 animals in 1984 to more than 7,000 
presently.
    This brings us to our concern with H.R. 2807. We understand 
that this bill is aimed at enhancing enforcement by allowing 
agencies to prosecute cases where powdered substances, for 
example, come into the country or are sold in interstate 
commerce and are purported to be medicinal or similar items 
such as rhino horn and tiger bone. And we understand that the 
agencies would have to go through expensive and difficult 
testing in order to actually provide evidence that the 
materials are, in fact, rhino or tiger. And we support the 
enforcement of the law as it should be.
    However, we have a concern that language of the bill as it 
stands at the moment is rather broad and we note that there 
were statements made this morning during the hearing that, as 
opposed to the language in the bill, have assumed a broad 
coverage. What we want to avoid is the unintended effect that 
something like the importation of the sport hunting trophy from 
the southern white rhino, which is completely legal and which 
enhances conservation of that species in South Africa in the 
field would not be interfered with, so we would appreciate the 
opportunity to work with the Committee on that.
    We have spoken informally to officials of the Interior 
Department. They agree with the concern and they agree that it 
can be rather simply solved.
    We appreciate the opportunity to appear before you and we 
would be glad to answer any questions.
    Thank you.
    [The prepared statement of Mr. Parsons may be found at end 
of hearing.]
    Mr. Saxton. Thank you very much, Mr. Parsons. Mr. Foose?

 STATEMENT OF THOMAS J. FOOSE, PROGRAM DIRECTOR, INTERNATIONAL 
                        RHINO FOUNDATION

    Mr. Foose. Thank you, Mr. Chairman.
    I am here representing the Asian and African Rhino 
Specialist Groups of IUCN, the World Conservation Union. Also 
the International Rhino Foundation, which is an NGO that works 
exclusively with rhinos and contributes or coordinates about $1 
million a year in rhino conservation projects. I am also 
representing the Rhinoceros Advisory Group of the American Zoo 
and Aquarium Association.
    My comments today are going to relate obviously to rhinos 
and mostly to the reauthorization of the Rhino and Tiger 
Conservation Act and Fund. (Foose presents slides.)
    Mr. Saxton. Dr. Foose, if you could just--somebody please 
help us with the lights there?
    Mr. Foose. The Rhino and Tiger Conservation Act was passed 
in a time of crisis for these species. This crisis continues, 
as is most cogently and poignantly conveyed by the current 
estimates of the numbers for the five species and 11 subspecies 
of rhino.
    There are fewer than 13,000 rhinos of all five species and 
11 subspecies combined. However, that number is deceptive 
because well over half of the 13,000 are of a single 
subspecies, the southern white rhino. The numbers of four of 
the species, the black, the Indian, the Sumatran and the Javan, 
are fewer than 6,000 combined. And the numbers of the three 
Asian species combined are only about equal to the rarer of the 
two African species, in other words, the black rhino.
    Just one more point to observe on the numbers that I think 
is relevant to these considerations, and that is that the 
numbers of all the rhinos combined and indeed all the rhinos 
and tigers combined are fewer in number than the estimated 
numbers of either species of elephant.
    All of the species and subspecies of rhino are far below 
the levels of numbers that conservation biologists consider 
viable.
    Rhinos are capable of recovery. Indeed, the two species of 
rhino that have done the best in recent years, the Indian rhino 
and the southern white rhino, were almost lost around the turn 
of the century due to over-exploitation. Both species have 
recovered from very small numbers of animals, perhaps as few as 
20 in each case.
    As has already been mentioned this morning, since the Rhino 
and Tiger Act was passed, there has been improvement in the 
numbers and status of rhinos. The numbers of black rhino in 
Africa have stabilized and are indeed recovering. In fact, they 
have recovered about 10 percent from their low point of 2,300 
in the years that the Rhino and Tiger Act has been operative. 
Southern white rhino and Indian rhino continue to increase 
well. The establishment of an effective system of rhino 
protection units in Southeast Asia is assisting the extremely 
rare Sumatran and Javan rhino.
    Also during this period a number of the range states and 
regions have been actively attempting to develop more income 
generation activities that will contribute to financial 
sustainability of the programs.
    The Rhino and Tiger Conservation Fund has been contributing 
significantly to this stabilization and recovery of rhinos. 
Moreover, reiterating a comment by Secretary Babbitt this 
morning, in addition to the benefits of the funds themselves, 
the Rhino and Tiger Conservation Fund has been serving an 
extremely significant function to help better coordinate and 
improve the quality and rigor of many of the rhino conservation 
programs.
    A prime example of this is the Javan rhino situation. 
Through support for and participation in a Javan rhino 
colloquium which got all of the parties involved with this 
species together, and through the RTC, the Rhino and Tiger 
Conservation Fund, review and critiques of project proposals, a 
much improved and coordinated program for this species has 
emerged.
    The organizations that I represent really want to commend 
the Fish and Wildlife Service and the Department of the 
Interior for the manner in which it has administered the Rhino 
and Tiger Conservation Fund.
    Having stated all of that, there remain very critical and 
precarious areas in trends for rhino conservation. The northern 
white rhino is literally on the brink of extinction. There are 
fewer of them than there are people in this room. This, 
ironically, was a success story in rhino conservation until the 
recent civil war in Zaire, now the Democratic Republic of 
Congo. The northwestern species of black rhino, which survives 
only in Cameroon, is even rarer. And the numbers of Sumatran 
and Javan rhino remain perilously low.
    Moreover, much of the success in rhino conservation in 
Africa has occurred in four or five countries, notably Kenya, 
the Republic of South Africa, Namibia and Zimbabwe. These 
countries have been, over the last decade, investing enormous 
amounts of their own resources in rhino conservation, but all 
of them are now confronting other problems and priorities that 
are going to translate into reduced budgets for rhino 
conservation in those range states. For example, in Natal 
province in South Africa, the budget has already been reduced 
$1 million for this next year.
    The economic crisis that has been going on in Southeast 
Asia is obviously also not going to contribute to the capacity 
of range states to support rhino conservation.
    Hence, there should be no complacency. The next 5 to 7 
years are going to be critical in terms of whether rhino 
species and subspecies survive.
    The two rhino specialist groups have assisted range states 
in developing their continental and national action plans. 
Basically over the next 5 to 7 years it is estimated that there 
is need for at least $3 million a year in Asia and another $3 
million a year in Africa in external support for the range 
states if the rhino programs are to be sustained.
    NGO's and the private sector can provide some of these 
funds, but it is vital that the U.S. Government and, in 
particular, the Rhino and Tiger Conservation Fund, continue 
and, if possible, increase the level of their support.
    The organizations I represent, therefore, reinforcing the 
recommendations that have already occurred here this morning, 
would encourage an increase in the appropriations for the Rhino 
and Tiger Conservation Fund to at least $1 million in fiscal 
year 1999 and perhaps moving toward $1.5 million in subsequent 
years, to be distributed among rhinos and tigers.
    This amount would compliment and stimulate continued 
matching funds from other NGO's and private partners. This kind 
of matching has already occurred with the Rhino and Tiger 
Conservation Fund where the ratio of rhino and tiger funds to 
matching funds has been about 30 percent to 70 percent. It 
would also move rhinos and tigers toward more parity with 
elephants, in terms of the support that it gets from the U.S. 
Government.
    Finally, just as a final comment, I want to observe 
something relative to this slide. This is not a scene from 
Africa or Asia. It is a scene from our own great plains a 
number of millions of years ago. It is both appropriate and 
ironic that the U.S. has become so central to rhino 
conservation. The U.S., a long time ago, was the center of 
rhino distribution on the planet. Rhinos were the most common 
large mammals in North America from about 40 until about 5 
million years ago, when we lost our native rhinos.
    Through the Rhino and Tiger Conservation Fund, as well as 
the efforts of AZA institutions and their species survival 
programs and other conservation programs that have been 
described here this morning, the U.S. has the opportunity to 
help save these species from extinction.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Foose may be found at end of 
hearing.]
    Mr. Saxton. Thank you all very much.
    I have a question for each of you, but before I do that we 
have some guests here this morning that I would just like to 
take a minute to recognize. Mr. Brian Kirby is a government 
teacher at Highland High School in Warrenton, Virginia and he 
is here with several students. Where are you folks? There they 
are, in the back.
    Welcome. We are really glad you are here and we hope that 
you have enjoyed your morning and learned something at the same 
time.
    Mr. Kirby. Thank you. It has been very informative.
    Mr. Saxton. Let me just ask a question for each of you to 
try and respond to. Obviously, we know that there is an 
economic incentive to destroy these animals. We also know that 
human conflict takes place with these animals and that may be 
part of the problem, as well. We also recognize that there is a 
habitat conservation effort which is necessary in this case, as 
in other cases.
    We have tried to, over the past 4 or 5 years, design some 
solutions that Congress feels is appropriate. We have two bills 
which we are discussing today.
    My question is this, if you had a clean blackboard and a 
chalk and you wanted us to design a program to move forward 
from here on, to do what it is that we are here to talk about, 
mainly saving these species, what would you suggest in addition 
to or different from that which we are doing? Anyone want to 
start? You all look puzzled.
    Ms. Bolze. Congress is the legislative body in the United 
States. If you are going to design a broad based tiger 
conservation strategy, which WCS produced in a report that we 
did about 2 years ago, it is going to involve lots of different 
countries and lots of different activities.
    So Congress is not going to be able to put the entire 
program in action. I think therefore the role of Congress right 
now is to fix some of the legal inadequacies that we have in 
our U.S. law. Hopefully, Congress can light a fire under the 
Department of Interior and FDA to pay some attention to trying 
to remove these products from the shelves. And the Rhino and 
Tiger Conservation Fund is a very useful vehicle for 
transferring U.S. money to other countries, a very supportive 
effort in trying to conserve these species in the wild.
    There is also the role of the Pelly Amendment or other 
types of issues that were discussed earlier regarding the 
larger issues of trade and how that affects conservation issues 
and environmental issues. Those are the key issues that 
Congress can take on and they should be taking on.
    Mr. Foose. I think that what Congress has enacted so far 
represents a very diversified and effective program for 
virtually all aspects of the problem. As I believe it was Terry 
Maple that observed, what really is needed now are more funds 
to better implement those programs.
    Mr. Saxton. I would suspect that each of you would agree 
that the $400,000 requested by the administration is 
insufficient?
    Mr. Foose. Certainly.
    Mr. Saxton. Any further comments?
    Mr. Seidensticker. I neglected to mention, I am also 
chairman of the Save The Tiger Fund, which is a partnership 
between the National Fish and Wildlife Foundation and the Exxon 
Corporation.
    We are seeking projects, like I mentioned, that really try 
to stabilize what is going on at the edge of reserves and to 
create habitat where there has not been habitat before. Tigers 
are divided up into about 160 populations. We think we have a 
pretty good chance if we work on saving about 50 of those 
populations.
    We need good projects like we have going in Nepal at every 
single one of those areas. That is the sort of thing that I 
would invest in. I think that the Rhino and Tiger Conservation 
Act can do that.
    And so I would go for the $10 million versus the $1 
million.
    Mr. Saxton. Well thank you, very much. Mr. Parsons?
    Mr. Parsons. I am not going to get giddy with the 
government surplus, but when we first supported this bill we 
had in mind the good work that had been done under the Elephant 
Conservation Act. Our perspective is that the U.S. can help by 
putting money out into the range states. We have heard in the 
past the many promises that were made by many environmental 
organizations and governments to provide money to save rhinos. 
And in fact, very little has happened.
    This law and the Elephant Act, have been the first real 
efforts to provide funding on a reliable basis, and we commend 
everybody for doing it. We think that the clean slate was there 
a few years and the Congress is acting properly.
    Our concern has been to urge the administration to consider 
programs in the range states, where the real needs are 
conserving the habitats and giving an incentive to the local 
people to be willing to share their land and their lives with 
animals which are both large and dangerous.
    So we think that we are going in the right direction. We 
agree with everyone that some more money is needed and we would 
like some attention to the programs in the range states. Thank 
you.
    Mr. Saxton. Thank you very much.
    I would like to thank all of you for being here this 
morning. Your insights have been very valuable.
    The members of the Subcommittee may have some additional 
questions for you and, if so, we will ask you if you would be 
kind enough to respond in writing. The hearing record will be 
kept open for 30 days for those responses.
    [The testimony of the Environmental Investigation Agency 
may be found at end of hearing.]
    Mr. Saxton. I know of no other business and, at this point, 
I will adjourn the hearing. Thank you.
    [Whereupon, at 11:56, the Subcommittee was adjourned.]
    [Additional material submitted for the record follows.]
  Statement of Lixing Lao, Ph.D., The American College of Traditional 
    Chinese Medicine, The Maryland Institute of Traditional Chinese 
   Medicine, The Complementary Medicine Program, School of Medicine, 
                         University of Maryland

    Good morning. My name is Lixing Lao and I am both a Doctor 
of Oriental Medicine and a Ph.D. I am appearing here before you 
today on behalf of the American College of Traditional Chinese 
Medicine (ACTCM) in San Francisco; the Maryland Institute of 
Traditional Chinese Medicine at Bethesda (MITCM); and the 
Complementary Medicine Program (CMP) at the University of 
Maryland School of Medicine. I am an Assistant Professor at the 
University of Maryland and also serve as Clinic director at the 
Maryland Institute of Traditional Chinese Medicine. In case any 
of your staff wish to search our web site, the U.R.L. address 
is, for ACTCM: www.actcm.org: for MITCM: www.mitcm.org; for CMP 
at the University of Maryland: www.compmed.ummc.ab.umd.edu
    The following is an jointed statement prepared by Ms. Lixin 
Huang, the President of the American College of Traditional 
Chinese Medicine, and myself.
    We would like to thank the members of the Committee for 
providing the opportunity to testify today about the critical 
need for ensuring safe habitat for the endangered tiger, and 
about the most effective and pragmatic ways to achieve that 
goal in the near future.
    1998 marks the Year of the Tiger in the Chinese calendar, 
which began on January 28th, the Chinese New Year. In Chinese 
culture, the tiger is regarded as the ``King of Wildlife,'' a 
symbol of energy, strength, speed, agility, and power, as well 
as of threat and danger. There are a number of Chinese idioms 
with the character representing ``tiger'' in them. To describe, 
for example, and individual or a business within certain 
conditions as being more successful, it is often expressed as 
``tiger with wings''; to praise active, healthy and energetic 
people, they are called ``a tiger come to life''; the 
accomplishment of a task that includes great risk or danger is 
described as ``pulling the teeth out of a tiger's mouth''; to 
have worked with a fine start and a poor finish is described as 
``in like a tiger, out like a lamb.'' For many, many years, 
people of Chinese descent have had an affinity for the image of 
the tiger, which has been reflected in the language, in 
literature, graphics, art, and medicine.
    Traditional Chinese Medicine (hereby TCM) and acupuncture 
has been developed and perfected over several millennia as an 
integral part of Chinese culture. It has counterparts in the 
Ayurvedic system of India and in some Western practices. It is 
widely used today throughout the world, often integrated with 
allopathic biomedicine, the most prevalent form of medical 
practice in the United States. In the United States, 34 states 
have passed legislation to support the practice of acupuncture 
and TCM, and consumer demand has resulted in a growing number 
of insurance carriers and HMOs making some Oriental Medicine 
available.
    TCM is a system of health care based on the concepts of 
Chinese natural philosophy, and it encompasses internal 
medicine, gynecology, pediatrics, dermatology, mental 
dysfunction, gerontology, immunology, oncology and pain 
management. Its applications range from the therapeutic 
practice of herbology and nutrition to acupuncture, massage, 
and Tai-Ji and Qi Gong exercises. As a long-standing and 
evolving form of human health care, TCM relies primarily on 
botanical materials and acupuncture needles as the basis for 
treatments, the latter have been classified by FDA as medical 
devices and confirmed by NIH as a safe and effective therapy 
``for the relief of pain and for a variety of health 
conditions.''
    Chinese materia medica are usually used in two ways: in 
traditional whole remedies and in ``patent medicines.'' In 
traditional whole remedies, unprocessed materia medica are 
mixed according to ancient formulae as modified and prescribed 
by a trained practitioner, who may perhaps also follow an 
established standard of care in certain syndromes. ``Patent 
medicines'' are also combined according to traditional 
formulations or standards of care, but are processed into 
tablets, tonics, pills and powders produced in large 
quantities. These are packaged in a medical factory and sold, 
exported to markets worldwide. The United States and Canada 
both import and produce such ``patent medicines.''
    The exploitation of the tiger and other endangered species 
for use in ``patent medicines'' has been a major conservation 
concern over the last decade. Our associates in the World 
Wildlife Fund and in the Wildlife Conservation Society have 
already testified to the overwhelming threat faced by tigers in 
the wild, and we need not underscore the continuing threat to 
human life posed by the decreasing biodiversity of the planet. 
Although CITES has banned the trade in tiger parts and products 
for over a decade, illegal commerce has continued because of 
the consumer demand, even though viable and effective 
alternatives to parts from endangered species are available. 
One of the key problems to be addressed is the lack of 
education about the alternatives to the use of endangered 
species parts among both consumers and practitioners. One of 
the other major problems is the perception, because TCM is so 
thoroughly a part of Asian culture, that conservation efforts 
are a result of cultural imperialism and insensitivity. The 
initial approach to the problem of severe international 
mandates and government enforcement did not serve to increase 
understanding.
    Therefore, there is an urgent need for a new conservation 
approach.
    An effective and pragmatic approach would be to educate 
consumers and, rather than impose upon, to work with TCM 
communities, bringing the awareness of the need for tiger 
conservation and useful medical alternatives directly into the 
community.
    The World Wildlife Fund and our organizations have joined 
together in an effort to take this new conservation approach. 
Together, we have developed an outreach program which will 
serve as the first systematic effort in North America to 
educate TCM users and practitioners, both those within and 
outside of the Asian-American communities, about endangered 
species issues. We will use culturally sensitive approaches and 
community-based educators to reach each target audience. In 
addition, we will be joining several conferences and holding 
our own symposium in San Francisco on tiger conservation and 
TCM.
    What our organizations and our colleagues now need from the 
Committee is not only this helpful public airing of these 
issues, but a commitment to help us secure the necessary 
private, and perhaps public, financial support to carry out 
this critical plan of education and outreach. We need an 
indication that you understand the gravity of the issues, and 
the usefulness and pragmatism of our approach to addressing 
them. In essence, we need for the Committee not to go in like a 
tiger and out like a lamb but to, instead, pull that bad tooth 
from the mouth of the tiger so that the tiger can come alive 
and our project can be like a tiger with wings.
    Please do whatever is in the scope of the Committee and of 
your individual offices to help us make this a Year for the 
Tiger.
    Thank your very much for your time.

    [GRAPHIC] [TIFF OMITTED] T6818.001
    
    [GRAPHIC] [TIFF OMITTED] T6818.002
    
    [GRAPHIC] [TIFF OMITTED] T6818.003
    
    [GRAPHIC] [TIFF OMITTED] T6818.004
    
    [GRAPHIC] [TIFF OMITTED] T6818.005
    
    [GRAPHIC] [TIFF OMITTED] T6818.006
    
    [GRAPHIC] [TIFF OMITTED] T6818.007
    
    [GRAPHIC] [TIFF OMITTED] T6818.008
    
    [GRAPHIC] [TIFF OMITTED] T6818.009
    
    [GRAPHIC] [TIFF OMITTED] T6818.010
    
    [GRAPHIC] [TIFF OMITTED] T6818.011
    
    [GRAPHIC] [TIFF OMITTED] T6818.012
    
    [GRAPHIC] [TIFF OMITTED] T6818.013
    
    [GRAPHIC] [TIFF OMITTED] T6818.014
    
    [GRAPHIC] [TIFF OMITTED] T6818.015
    
    [GRAPHIC] [TIFF OMITTED] T6818.016
    
    [GRAPHIC] [TIFF OMITTED] T6818.017
    
    [GRAPHIC] [TIFF OMITTED] T6818.018
    
    [GRAPHIC] [TIFF OMITTED] T6818.019
    
    [GRAPHIC] [TIFF OMITTED] T6818.020
    
    [GRAPHIC] [TIFF OMITTED] T6818.021
    
    [GRAPHIC] [TIFF OMITTED] T6818.022
    
    [GRAPHIC] [TIFF OMITTED] T6818.023
    
    [GRAPHIC] [TIFF OMITTED] T6818.024
    
    [GRAPHIC] [TIFF OMITTED] T6818.025
    
    [GRAPHIC] [TIFF OMITTED] T6818.026
    
    [GRAPHIC] [TIFF OMITTED] T6818.027
    
    [GRAPHIC] [TIFF OMITTED] T6818.028
    
    [GRAPHIC] [TIFF OMITTED] T6818.029
    
    [GRAPHIC] [TIFF OMITTED] T6818.030
    
    [GRAPHIC] [TIFF OMITTED] T6818.031
    
    [GRAPHIC] [TIFF OMITTED] T6818.032
    
    [GRAPHIC] [TIFF OMITTED] T6818.033
    
    [GRAPHIC] [TIFF OMITTED] T6818.034
    
    [GRAPHIC] [TIFF OMITTED] T6818.035
    
    [GRAPHIC] [TIFF OMITTED] T6818.036
    
    [GRAPHIC] [TIFF OMITTED] T6818.037
    
    [GRAPHIC] [TIFF OMITTED] T6818.038
    
    [GRAPHIC] [TIFF OMITTED] T6818.039
    
    [GRAPHIC] [TIFF OMITTED] T6818.040
    
    [GRAPHIC] [TIFF OMITTED] T6818.041
    
    [GRAPHIC] [TIFF OMITTED] T6818.042
    
    [GRAPHIC] [TIFF OMITTED] T6818.043
    
    [GRAPHIC] [TIFF OMITTED] T6818.044
    
    [GRAPHIC] [TIFF OMITTED] T6818.045
    
    [GRAPHIC] [TIFF OMITTED] T6818.046
    
    [GRAPHIC] [TIFF OMITTED] T6818.047
    
    [GRAPHIC] [TIFF OMITTED] T6818.048
    
    [GRAPHIC] [TIFF OMITTED] T6818.049
    
    [GRAPHIC] [TIFF OMITTED] T6818.050
    
    [GRAPHIC] [TIFF OMITTED] T6818.051
    
    [GRAPHIC] [TIFF OMITTED] T6818.052
    
    [GRAPHIC] [TIFF OMITTED] T6818.053
    
    [GRAPHIC] [TIFF OMITTED] T6818.054
    
    [GRAPHIC] [TIFF OMITTED] T6818.055
    
    [GRAPHIC] [TIFF OMITTED] T6818.056
    
    [GRAPHIC] [TIFF OMITTED] T6818.057
    
    [GRAPHIC] [TIFF OMITTED] T6818.058
    
    [GRAPHIC] [TIFF OMITTED] T6818.059
    
    [GRAPHIC] [TIFF OMITTED] T6818.060
    
    [GRAPHIC] [TIFF OMITTED] T6818.061
    
    [GRAPHIC] [TIFF OMITTED] T6818.062
    
    [GRAPHIC] [TIFF OMITTED] T6818.063
    
    [GRAPHIC] [TIFF OMITTED] T6818.064
    
    [GRAPHIC] [TIFF OMITTED] T6818.065
    
    [GRAPHIC] [TIFF OMITTED] T6818.066
    
    [GRAPHIC] [TIFF OMITTED] T6818.067
    
    [GRAPHIC] [TIFF OMITTED] T6818.068
    
    [GRAPHIC] [TIFF OMITTED] T6818.069
    
    [GRAPHIC] [TIFF OMITTED] T6818.070
    
    [GRAPHIC] [TIFF OMITTED] T6818.071
    
    [GRAPHIC] [TIFF OMITTED] T6818.072
    
    [GRAPHIC] [TIFF OMITTED] T6818.073
    
    [GRAPHIC] [TIFF OMITTED] T6818.074
    
    [GRAPHIC] [TIFF OMITTED] T6818.075
    
    [GRAPHIC] [TIFF OMITTED] T6818.076
    
    [GRAPHIC] [TIFF OMITTED] T6818.077
    
    [GRAPHIC] [TIFF OMITTED] T6818.078
    
    [GRAPHIC] [TIFF OMITTED] T6818.079
    
    [GRAPHIC] [TIFF OMITTED] T6818.080
    
    [GRAPHIC] [TIFF OMITTED] T6818.081
    
    [GRAPHIC] [TIFF OMITTED] T6818.082
    
    [GRAPHIC] [TIFF OMITTED] T6818.083
    
    [GRAPHIC] [TIFF OMITTED] T6818.084
    
    [GRAPHIC] [TIFF OMITTED] T6818.085
    
    [GRAPHIC] [TIFF OMITTED] T6818.086
    
    [GRAPHIC] [TIFF OMITTED] T6818.087
    
    [GRAPHIC] [TIFF OMITTED] T6818.088
    
    [GRAPHIC] [TIFF OMITTED] T6818.089
    
    [GRAPHIC] [TIFF OMITTED] T6818.090
    
    [GRAPHIC] [TIFF OMITTED] T6818.091
    
    [GRAPHIC] [TIFF OMITTED] T6818.092
    
    [GRAPHIC] [TIFF OMITTED] T6818.093
    
    [GRAPHIC] [TIFF OMITTED] T6818.094
    
    [GRAPHIC] [TIFF OMITTED] T6818.095
    
    [GRAPHIC] [TIFF OMITTED] T6818.096
    
    [GRAPHIC] [TIFF OMITTED] T6818.097
    
    [GRAPHIC] [TIFF OMITTED] T6818.098
    
    [GRAPHIC] [TIFF OMITTED] T6818.099
    
    [GRAPHIC] [TIFF OMITTED] T6818.100
    
    [GRAPHIC] [TIFF OMITTED] T6818.101
    
    [GRAPHIC] [TIFF OMITTED] T6818.102
    
    [GRAPHIC] [TIFF OMITTED] T6818.103
    
    [GRAPHIC] [TIFF OMITTED] T6818.104
    
    [GRAPHIC] [TIFF OMITTED] T6818.105
    
    [GRAPHIC] [TIFF OMITTED] T6818.106
    
    [GRAPHIC] [TIFF OMITTED] T6818.107
    
    [GRAPHIC] [TIFF OMITTED] T6818.108
    
    [GRAPHIC] [TIFF OMITTED] T6818.109
    
    [GRAPHIC] [TIFF OMITTED] T6818.110
    
    [GRAPHIC] [TIFF OMITTED] T6818.111
    
    [GRAPHIC] [TIFF OMITTED] T6818.112
    
    [GRAPHIC] [TIFF OMITTED] T6818.113
    
    [GRAPHIC] [TIFF OMITTED] T6818.114
    
    [GRAPHIC] [TIFF OMITTED] T6818.115
    
    [GRAPHIC] [TIFF OMITTED] T6818.116
    
    [GRAPHIC] [TIFF OMITTED] T6818.117
    
    [GRAPHIC] [TIFF OMITTED] T6818.118
    
    [GRAPHIC] [TIFF OMITTED] T6818.119
    
    [GRAPHIC] [TIFF OMITTED] T6818.120
    
    [GRAPHIC] [TIFF OMITTED] T6818.121
    
    [GRAPHIC] [TIFF OMITTED] T6818.122
    
    [GRAPHIC] [TIFF OMITTED] T6818.123
    
    [GRAPHIC] [TIFF OMITTED] T6818.124
    
    [GRAPHIC] [TIFF OMITTED] T6818.125
    
    [GRAPHIC] [TIFF OMITTED] T6818.126
    
    [GRAPHIC] [TIFF OMITTED] T6818.127
    
    [GRAPHIC] [TIFF OMITTED] T6818.128
    
    [GRAPHIC] [TIFF OMITTED] T6818.129
    
    [GRAPHIC] [TIFF OMITTED] T6818.130
    
    [GRAPHIC] [TIFF OMITTED] T6818.131
    
    [GRAPHIC] [TIFF OMITTED] T6818.132
    
    [GRAPHIC] [TIFF OMITTED] T6818.133
    
    [GRAPHIC] [TIFF OMITTED] T6818.134
    
    [GRAPHIC] [TIFF OMITTED] T6818.135
    
    [GRAPHIC] [TIFF OMITTED] T6818.136
    
    [GRAPHIC] [TIFF OMITTED] T6818.137
    
    [GRAPHIC] [TIFF OMITTED] T6818.138
    
    [GRAPHIC] [TIFF OMITTED] T6818.139
    
    [GRAPHIC] [TIFF OMITTED] T6818.140
    
    [GRAPHIC] [TIFF OMITTED] T6818.141
    
    [GRAPHIC] [TIFF OMITTED] T6818.142
    
    [GRAPHIC] [TIFF OMITTED] T6818.143
    
    [GRAPHIC] [TIFF OMITTED] T6818.144
    
    [GRAPHIC] [TIFF OMITTED] T6818.145
    
    [GRAPHIC] [TIFF OMITTED] T6818.146
    
    [GRAPHIC] [TIFF OMITTED] T6818.147
    
    [GRAPHIC] [TIFF OMITTED] T6818.148
    
    [GRAPHIC] [TIFF OMITTED] T6818.149
    
    [GRAPHIC] [TIFF OMITTED] T6818.150
    
    [GRAPHIC] [TIFF OMITTED] T6818.151
    
    [GRAPHIC] [TIFF OMITTED] T6818.152
    
    [GRAPHIC] [TIFF OMITTED] T6818.153
    
    [GRAPHIC] [TIFF OMITTED] T6818.154
    
    [GRAPHIC] [TIFF OMITTED] T6818.155
    
    [GRAPHIC] [TIFF OMITTED] T6818.156
    
    [GRAPHIC] [TIFF OMITTED] T6818.157
    
    [GRAPHIC] [TIFF OMITTED] T6818.158
    
    [GRAPHIC] [TIFF OMITTED] T6818.159
    
    [GRAPHIC] [TIFF OMITTED] T6818.160
    
    [GRAPHIC] [TIFF OMITTED] T6818.161
    
    [GRAPHIC] [TIFF OMITTED] T6818.162
    
    [GRAPHIC] [TIFF OMITTED] T6818.163
    
    [GRAPHIC] [TIFF OMITTED] T6818.164
    
    [GRAPHIC] [TIFF OMITTED] T6818.165
    
    [GRAPHIC] [TIFF OMITTED] T6818.166
    
    [GRAPHIC] [TIFF OMITTED] T6818.167
    
    [GRAPHIC] [TIFF OMITTED] T6818.168
    
    [GRAPHIC] [TIFF OMITTED] T6818.169
    
    [GRAPHIC] [TIFF OMITTED] T6818.170
    
    [GRAPHIC] [TIFF OMITTED] T6818.171
    
    [GRAPHIC] [TIFF OMITTED] T6818.172
    
    [GRAPHIC] [TIFF OMITTED] T6818.173
    
    [GRAPHIC] [TIFF OMITTED] T6818.174
    
    [GRAPHIC] [TIFF OMITTED] T6818.175
    
    [GRAPHIC] [TIFF OMITTED] T6818.176
    
    [GRAPHIC] [TIFF OMITTED] T6818.177
    
    [GRAPHIC] [TIFF OMITTED] T6818.178
    
    [GRAPHIC] [TIFF OMITTED] T6818.179
    
    [GRAPHIC] [TIFF OMITTED] T6818.180
    
    [GRAPHIC] [TIFF OMITTED] T6818.181
    
    [GRAPHIC] [TIFF OMITTED] T6818.182
    
    [GRAPHIC] [TIFF OMITTED] T6818.183
    
    [GRAPHIC] [TIFF OMITTED] T6818.184
    
    [GRAPHIC] [TIFF OMITTED] T6818.185
    
    [GRAPHIC] [TIFF OMITTED] T6818.186
    
    [GRAPHIC] [TIFF OMITTED] T6818.187
    
    [GRAPHIC] [TIFF OMITTED] T6818.188
    
    [GRAPHIC] [TIFF OMITTED] T6818.189
    
    [GRAPHIC] [TIFF OMITTED] T6818.190
    
    [GRAPHIC] [TIFF OMITTED] T6818.191
    
    [GRAPHIC] [TIFF OMITTED] T6818.192
    
    [GRAPHIC] [TIFF OMITTED] T6818.193
    
    [GRAPHIC] [TIFF OMITTED] T6818.194
    
    [GRAPHIC] [TIFF OMITTED] T6818.195
    
    [GRAPHIC] [TIFF OMITTED] T6818.196
    
    [GRAPHIC] [TIFF OMITTED] T6818.197
    
    [GRAPHIC] [TIFF OMITTED] T6818.198
    
    [GRAPHIC] [TIFF OMITTED] T6818.199
    
    [GRAPHIC] [TIFF OMITTED] T6818.200
    
    [GRAPHIC] [TIFF OMITTED] T6818.201
    
    [GRAPHIC] [TIFF OMITTED] T6818.202
    
    [GRAPHIC] [TIFF OMITTED] T6818.203
    
    [GRAPHIC] [TIFF OMITTED] T6818.204
    
    [GRAPHIC] [TIFF OMITTED] T6818.205
    
    [GRAPHIC] [TIFF OMITTED] T6818.206
    
    [GRAPHIC] [TIFF OMITTED] T6818.207
    
    [GRAPHIC] [TIFF OMITTED] T6818.208
    
    [GRAPHIC] [TIFF OMITTED] T6818.209
    
    [GRAPHIC] [TIFF OMITTED] T6818.210
    
    [GRAPHIC] [TIFF OMITTED] T6818.211
    
    [GRAPHIC] [TIFF OMITTED] T6818.212
    
    [GRAPHIC] [TIFF OMITTED] T6818.213
    
    [GRAPHIC] [TIFF OMITTED] T6818.214
    
    [GRAPHIC] [TIFF OMITTED] T6818.215
    
    [GRAPHIC] [TIFF OMITTED] T6818.216
    
    [GRAPHIC] [TIFF OMITTED] T6818.217
    
    [GRAPHIC] [TIFF OMITTED] T6818.218
    
    [GRAPHIC] [TIFF OMITTED] T6818.219
    
    [GRAPHIC] [TIFF OMITTED] T6818.220
    
    [GRAPHIC] [TIFF OMITTED] T6818.221
    
    [GRAPHIC] [TIFF OMITTED] T6818.222
    
    [GRAPHIC] [TIFF OMITTED] T6818.223
    
    [GRAPHIC] [TIFF OMITTED] T6818.224
    
    [GRAPHIC] [TIFF OMITTED] T6818.225
    
    [GRAPHIC] [TIFF OMITTED] T6818.226
    
    [GRAPHIC] [TIFF OMITTED] T6818.227
    
    [GRAPHIC] [TIFF OMITTED] T6818.228
    
    [GRAPHIC] [TIFF OMITTED] T6818.229
    
    [GRAPHIC] [TIFF OMITTED] T6818.230
    
    [GRAPHIC] [TIFF OMITTED] T6818.231
    
    [GRAPHIC] [TIFF OMITTED] T6818.232
    
    [GRAPHIC] [TIFF OMITTED] T6818.233
    

</pre></body></html>
